<html>
<title> - [H.A.S.C. No. 112-49]TEN YEARS ON: THE EVOLUTION OF STRATEGIC COMMUNICATION AND INFORMATION OPERATIONS SINCE 9/11</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-49]

                     TEN YEARS ON: THE EVOLUTION OF

                      STRATEGIC COMMUNICATION AND

                   INFORMATION OPERATIONS SINCE 9/11

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 12, 2011


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                      U.S. GOVERNMENT PRINTING OFFICE
  67-796                   WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfaedf2ddfee8eee9f5f8f1edb3fef2f0b3">[email&#160;protected]</a>  



           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman
JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                LORETTA SANCHEZ, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
K. MICHAEL CONAWAY, Texas            SUSAN A. DAVIS, California
CHRIS GIBSON, New York               TIM RYAN, Ohio
BOBBY SCHILLING, Illinois            C.A. DUTCH RUPPERSBERGER, Maryland
ALLEN B. WEST, Florida               HANK JOHNSON, Georgia
TRENT FRANKS, Arizona
DUNCAN HUNTER, California
                 Kevin Gates, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                      Jeff Cullen, Staff Assistant





                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, July 12, 2011, Ten Years On: The Evolution of Strategic 
  Communication and Information Operations Since 9/11............     1

Appendix:

Tuesday, July 12, 2011...........................................    27
                              ----------                              

                         TUESDAY, JULY 12, 2011
TEN YEARS ON: THE EVOLUTION OF STRATEGIC COMMUNICATION AND INFORMATION 
                         OPERATIONS SINCE 9/11
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................    10
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Brooks, Rosa, Professor, Georgetown University Law Center........     2
Hamid, Dr. Tawfik, Senior Fellow and Chair for the Study of 
  Islamic Radicalism, Potomac Institute for Policy Studies.......     6
Paul, Dr. Christopher, Social Scientist, RAND Corporation........     4

                                APPENDIX

Prepared Statements:

    Brooks, Rosa.................................................    32
    Hamid, Dr. Tawfik............................................    73
    Paul, Dr. Christopher........................................    49
    Thornberry, Hon. Mac.........................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

 
 TEN YEARS ON: THE EVOLUTION OF STRATEGIC COMMUNICATION AND INFORMATION 
                         OPERATIONS SINCE 9/11

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                            Washington, DC, Tuesday, July 12, 2011.
    The subcommittee met, pursuant to call, at 3:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
     TEXAS, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Thornberry. I call the hearing to order.
    And again, I apologize to the witnesses for the delay. But 
I appreciate you bearing with us during the time of votes.
    I want to ask unanimous consent that my opening statement 
will be made part of the record, and since nobody else is here 
at the moment that seems to be without objection in the 
interest of time.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 31.]
    Mr. Thornberry. As you all know, this has been an important 
issue for this subcommittee for some time. And there had been 
meetings even in recent weeks I have attended where Members had 
expressed various opinions on whether the area of strategic 
communications particularly in terrorism is an area where it is 
appropriate or productive for the United States government to 
be involved.
    And I think it is most appropriate for us to hear your 
views about whether we should be involved, how we are doing, 
and suggestions you have for the way forward.
    So I understand Mr. Langevin and other Members are on their 
way, but in the interest of time let me go ahead. And I am 
going to turn to our witnesses to summarize their opening 
statements.
    Without objection, your complete written statement will be 
made part of the record.
    And I will turn to our witnesses--Ms. Rosa Brooks, 
professor of Georgetown University Law Center; Dr. Christopher 
Paul from the RAND Corporation; and Dr. Tawfik Hamid, senior 
fellow and chair for the study of Islamic radicalism at the 
Potomac Institute for Policy Studies.
    So, Ms. Brooks, we will start with you. Again, thanks for 
being here.

STATEMENT OF ROSA BROOKS, PROFESSOR, GEORGETOWN UNIVERSITY LAW 
                             CENTER

    Ms. Brooks. Thank you.
    Thank you, Chris.
    Thank you, Mr. Chairman. Now I can be heard.
    It is great to have an opportunity to be here. And let me 
just start by saying, as you said, I am a professor at 
Georgetown. Until a few weeks ago, I was an official at the 
Defense Department, where I worked very extensively on 
strategic communication and information operations [IO] issues. 
But I should emphasize that although I am very happy to talk to 
the extent that I can about those issues if there is interest 
and questions, I am here today just in my individual capacity.
    I believe Chris----
    Mr. Thornberry. Would you pull the microphone just a little 
closer to you? It may be me, but----
    Ms. Brooks. Is this better?
    I think Chris is going to talk a little bit about the 
origin of the term ``strategic communication'' and the various 
meanings it might have in some detail so I won't do much beyond 
saying that it is a bit of a corporate import. And indeed, 
people often use the term ``strategic communications'' with an 
``s'' on it just to mean the plural of all the different kinds 
of public relations, marketing, advertising.
    We have really struggled to give it a meaning at the 
Defense Department that adds some value that isn't the same, 
because I don't think it is particularly useful in the 
government context to have that term.
    It is just redundant if it means the same thing as public 
affairs, plus public diplomacy, plus what we used to call 
psychological operations [PSYOP] and now call MISO--military 
information support operations. So we have really struggled to 
make it a somewhat more robust concept, one that emphasizes the 
importance of engagement, listening, understanding the 
perception of others and aligning all of our tools, our 
actions, as well as our words in order to influence perceptions 
in a way that is in our favor.
    I think though that that corporate history of communication 
often creates a lot of misleading and overly simplistic 
impressions about what strategic communication can and can't do 
in the government context.
    One of those impressions is that it is simple. It is like 
selling a soda. You want to be able to easily show success or 
failure. You want to be easily able to quantify it.
    But in the context of national security and foreign policy 
objectives, it is not a soda. It is much more complex. People's 
bundles of cultural assumptions are very, very different. The 
timeframe for success is much, much longer. You are not talking 
about increasing sales over year one or year two. It is much 
harder to gauge. What you are doing is much more of an art than 
a science.
    I think that one phrase that you still very, very often 
hear repeated is the famous one of Richard Holbrooke's, ``How 
can the world's greatest communication society be out 
communicated by a guy in a cave?''
    And I think that imbeds some of those assumptions that the 
skills of Madison Avenue and Hollywood in a subcultural vacuum 
can nonetheless significantly change the perceptions, attitudes 
and behaviors of many, many people around the globe.
    Osama bin Laden, who, of course, was the man in the cave 
who Holbrooke was referring to, had a lot of advantages early 
on in a certain way when it came to strategic communication. 
One of them was the home court advantage.
    Compared to us, he knew the language, the culture, the 
history, the narrative, certainly far more than we did. They 
say all politics is local. Maybe all strategic communications 
is fundamentally local, at least, to be successful.
    He also had the underdog status, and I think we early on 
made a mistake and really playing into his hands, in some way 
giving him a prestige. The appearance of the whole U.S. 
military was preoccupied with this one man.
    We had a platform already. We unintentionally raised it a 
little bit higher for him by seeming obsessed with one man, one 
organization at the expense of other issues.
    With that said, Osama bin Laden in the end, I think, didn't 
out communicate anybody. By the time of his death, he had 
really sunk into much greater irrelevance. I think he was 
overtaken by the events of the Arab Spring, a multiplicity of 
other voices.
    In a way he forgot that actions speak louder than words and 
that no amount of ringing appeals to Islamic unity or jihad 
could make up for the number of dead Muslim bodies in the 
streets and the squares in the Arab world and elsewhere. He was 
overtaken by many other voices that in many ways were rejecting 
extremism.
    What does all these mean to the United States, very, very 
briefly?
    I think there are some things when it comes to strategic 
communication that we need more of and some things that we need 
less of.
    One thing that we need more of still is we are still in the 
process of reforming some of our internal structures in the 
government to diminish confusion about just what it is we are 
talking about when we say ``strategic communication'' or ``IO'' 
or these various other terms. We need to increase our 
coordination, training, et cetera.
    We need to decentralize more and stop fixating on control 
of the message, which rarely works, and indeed, I think one of 
the reasons that we have seen, you know, in the Arab Spring, a 
multiplicity of voices, who aren't that interested in the 
issues that we were interested in, in the end become much more 
influential than our efforts to change the conversation 
ourselves.
    We need more funding for good, old-fashioned public 
diplomacy, cultural exchanges, educational exchanges. They make 
a difference. They help with that decentralization by 
empowering those many other voices.
    There is some risk in that. You sometimes empower people 
you are not going to like very much, but I think it is one of 
those tactical risks for strategic gain situations, and long 
term it pays off.
    And we need more funding for linguistic training, regional 
area studies training.
    What do we need less of? We need a little bit less of 
seeing all strategic communication through a counterterrorism 
lens. I think that that ends up doing us a disservice in our 
counterterrorism aims, ironically. I am happy to talk a little 
bit more about that.
    I think we need little bit less of an obsession with 
metrics and assessments. It is very hard, in fact, especially 
in the short run, to evaluate the success of strategic 
communication campaigns.
    I think we need less of a zero defect mentality. No 
question in my mind there are people in the name of U.S. 
government strategic communications doing stupid things right 
this minute. It is going to happen, but we can't throw the baby 
out with the bathwater when it does happen.
    And finally, just the last point, I think that we need a 
little bit less obsession with who does what. One of the topics 
that in some ways I get most frustrated by is why is the DOD 
[Department of Defense] doing this when the State Department 
should be doing this in a different world. It seems to me if 
the phrase ``whole of government'' that we toss around a lot 
means anything at all, it has got to mean that when something 
is in the national interest, the government finds a way to do 
it.
    In a better world, I think the State Department would be 
better funded, have greater capacity. We are not there yet. In 
the meantime, I think, very clearly it is among other things a 
military mission to use the tools it has to prevent conflicts 
when possible.
    I will stop there. I know I have only skated over the 
surface, but I have used up my 5 minutes.
    So, thank you very much. I am happy to talk more in the 
questions.
    [The prepared statement of Ms. Brooks can be found in the 
Appendix on page 32.]
    Mr. Thornberry. Thank you.
    We are a little liberal on the 5 minutes, because I do 
realize this is a big topic and we are asking you to summarize 
your statement. But I appreciate you doing so.
    Dr. Paul.

   STATEMENT OF DR. CHRISTOPHER PAUL, SOCIAL SCIENTIST, RAND 
                          CORPORATION

    Dr. Paul. Thanks very much for inviting me here to testify 
today.
    It was, in fact, in 2001 that Vince Vitto coined the phrase 
``strategic communication'' for use in the government as we are 
talking about it today, while serving as the chairman of the 
Defense Science Board Task Force on Managed Information 
Dissemination.
    So here we are 10 years later still using his phrase, but 
still struggling collectively to get our arms around the 
concept, let alone to do it well. So there is no official 
government-wide definition of ``strategic communication.'' And 
in academia there is not an agreed definition, nor is there 
complete consensus about the boundaries of the concepts for 
agreements on priorities for moving it forward.
    In my research I have observed at least three differences, 
real, actual tensions in how people conceive strategic 
communication. These are: first, attention between broadcast 
and engagement; second, disagreements over the desired degree 
of control of the message, attention between balancing taped 
message automatons versus loose cannon in the ship of 
communication; and, third, attention between inform and 
influence.
    And I think it is this latter tension that is the most 
significant and pernicious, a tension between those who admit 
that the goal of strategic communication is influence and those 
who hold that the goal is just to inform without influencing.
    And I think this is a false dichotomy. Informing without 
influencing isn't possible. There is no such thing in my view 
as value-free information. Every provision of information 
depends on the attitudes and beliefs of the speaker and seeks 
to serve some purpose.
    Letting the facts speak for themselves presupposes first 
two things: first, that the facts have something to say and, 
second, that there is something that the speaker wants said. 
Every provision of information is an act of persuasion.
    Perhaps the more appropriate distinction to make would be 
between influence and manipulation. In my view, strategic 
communication should be unashamedly about virtuous persuasion, 
but should be completely devoid of falsehood, partial truths 
and spin.
    A wide range of definitions could successfully cover the 
concept, as long as they respect what I call the unassailable 
core of strategic communication, which has four tenets. First, 
informing, influencing and persuading is important. Second, 
effectively informing, influencing and persuading requires 
clear objectives. Third, coordination and deconfliction are 
necessary to avoid information fratricide. And, fourth, actions 
communicate.
    Now, this last point is particularly important, as far too 
often strategic communication efforts focus only on the 
traditional communicators and the traditional messaging to the 
exclusion of the messages and signals we send in other ways.
    So, if a definition of strategic communication doesn't 
embrace those four points then in my view it is actually a 
definition of something else.
    I have a vision of what successful U.S. government 
strategic communication would look like. In this vision we have 
clearly stated national objectives, which contain nested 
subordinate objectives, which contain nested intermediate 
objectives, nesting all the way down to the operational and the 
tactical level.
    These clear statements make it easy to see where there is a 
way and a way for influence and persuasion to contribute and 
where there isn't.
    In this vision commanders and decisionmakers have a 
communication mindedness. They consider the messages and 
signals that will be sent by their actions, their utterances, 
their plans, policies. Failing that--or as that is developing--
these same commanders or decisionmakers have access to and 
respect for communication specialists, who advise them and sit 
at their right hand and bring the communication implications of 
their intentions to their attention.
    In this vision everyone in government speaks not with one 
voice like a robot or a parrot, but with their messages aligned 
in the same direction, because everyone understands the nested 
objectives and, most importantly, how their own efforts 
contribute to those objectives and because they have or have 
access to the requisite communication training and cultural 
knowledge.
    In this vision communication isn't exclusively one-way 
broadcast but also includes two-way communication, engagement 
and dialogue. In my vision this leads to policy shaped with our 
own interests, as well as the interest and preferences of 
others in mind. This is my vision.
    To support my vision I have six recommendations. I will 
give you the headline for each and refer you to my written 
testimony for the details.
    My recommendations:
    First, specify information end states.
    Second, build strategic communication following a crawl, 
walk, run progression.
    Third, build strategic communication from the bottom up as 
well as from the top down. We do need further leadership and 
guidance in this area from the highest levels, but better 
training and better practices at intermediate and lower levels 
can make important contributions that should not be overlooked.
    Fifth, make a distinction and separate virtuous persuasion 
from more pernicious deception and manipulation.
    And sixth and finally, create and disseminate a government-
wide definition of strategic communication.
    I am happy to elaborate on anything I have touched on 
during questions and answers.
    Thank you for your time today.
    [The prepared statement of Dr. Paul can be found in the 
Appendix on page 49.]
    Mr. Thornberry. Thank you. I appreciate it.
    Dr. Hamid.

STATEMENT OF DR. TAWFIK HAMID, SENIOR FELLOW AND CHAIR FOR THE 
   STUDY OF ISLAMIC RADICALISM, POTOMAC INSTITUTE FOR POLICY 
                            STUDIES

    Dr. Hamid. Thanks a lot. It is a pleasure and honor to be 
with you today.
    I will address first an important issue with the strategic 
communication, which is a need, and a vital need, for this 
topic in the war on terror, because the war on terror should 
not be seen as a war within a geographical border. We have seen 
terrorism developing from Afghanistan, Pakistan to homegrown 
terrorism in America here.
    So I see that the war on terror should focus on what I call 
``Brainistan,'' the impulse of hatred that is created in the 
mind of some individuals and causes them to do terrorism. So, 
if we ignore this part of the problem, then we will have major 
difficulty, really, to defeat terrorism at the end.
    The other point I would like to mention is that after 
September 11 there were several setbacks in the relationship 
between the U.S. and the Muslim world. And in response to this 
the United States tried several ways to improve its image in 
the Muslim world, what they call winning hearts and minds.
    They used some phrases like ``Islam is a religion of 
peace,'' for example, to satisfy the Muslim society. They 
avoided using certain expressions like the word ``jihad'' in 
official communications for the same reason.
    And they also tried in some situation to show what I call 
culture oversensitivity, not just sensitivity, by having some 
U.S. diplomats wearing the hijab, for example, the Islamic 
scarf, when they visit Muslim countries, or sometimes the 
female military personnel will wear the hijab in Afghanistan to 
satisfy the local community, thinking that this will improve 
the image of the United States.
    The outcome of many of these attempts were not really very 
significant improvement in the image of the United States in 
the Muslim world. I mentioned some reports in my statement to 
show that the outcome was not really so very promising of all 
these attempts.
    Weaknesses in the U.S. approach, as I see them, include the 
following: failure to achieve what I call a critical balance or 
crucial balance between showing respect to the Muslim world and 
not being perceived as weak. So the balance here is needed.
    For example, doing certain acts like the U.S. President, 
for example, bowing to the king of Saudi Arabia to show 
respect, he could have given him a hug, because bowing here can 
show sign of weakness that can impede the image of, the 
improvement of the image of the United States. In general the 
Muslim world prefers to have a strong friend rather than a weak 
friend.
    The other point is failure to remove obstacles that impede 
the process of improving the U.S. image, like, for example, 
failure to weaken the radical, or inability to weaken radical 
Islamic ideology itself which is a main obstacle to improving 
the image of the United States in the Muslim world.
    The ideology itself here is crucial. Without weakening it, 
the image of the United States will have always difficulty to 
be improved. And also failure to disassociate the U.S. 
government from the U.S. media in the minds of many in the 
Muslim world.
    In our parts of the world we don't see the government here 
separate from the media, so the government can do great things 
to improve its image, yet we see someone in the media 
criticizing Islam, for example. This can ruin the whole image 
of the government. I believe sufficient effort should be given 
to disassociate the U.S. government from the media in the mind 
of many in the Muslim world.
    The recommendations in general--I give the outlines--we 
should work at three levels: the level of improving the message 
quality itself via the text. Sometimes use some Islamic text to 
really improve the strategic communication. I give some example 
here. There is a need to use certain cognitive psychology 
tactics to improve the U.S. image to create positive links to 
the U.S.
    Also, the U.S. needs to work on weakening the ideology of 
terrorism by properly calculated and adjusted psychological 
warfare operations. This is much more effective than just 
military confrontation. We need to balance this psychological 
warfare that is fundamental to weaken the mind of the 
terrorists.
    And, finally, addressing the perception issue so whenever 
certain acts or deeds or statements are released, they should 
be carefully done or stated in a way to avoid being perceived 
as weak on the other side. So you can still show respect as 
you--great, it is great to show respect, however you should do 
it in a way without being perceived as weak.
    These are the frames of recommendations, and I mentioned 
more details in my statement. Thank you.
    [The prepared statement of Dr. Hamid can be found in the 
Appendix on page 73.]
    Mr. Thornberry. Thank you.
    Excuse me.
    Let me just ask each of you to comment on something I want 
to read, and then I will yield to Ranking Member Mr. Langevin.
    This is a quote from an article entitled ``Ending Al 
Qaeda'' which appeared in the July/August issue of the American 
Interest. And it says, ``The center of gravity in our struggle 
with Islamist terrorism concerns Al Qaeda's legitimacy in the 
context of Muslim perceptions of the West. Counter-narratives 
can enable Western and allied Middle Eastern governments to 
convince potential Al Qaeda recruits that violent extremism is 
both intellectually corrupt and politically counterproductive. 
If we combine these messages with a concerted effort to contest 
Al Qaeda's strategic communications mastery of the Internet, we 
can end recruitment. We can thus destroy Al Qaeda as a self-
regenerating worldwide proselytizing organization. Alas, we are 
not doing this very well. In some respects, we are not doing it 
at all. We need to change our ways lest we come to regret an 
opportunity missed.''
    I would be very interested to know your reaction to those 
statements.
    Ms. Brooks.
    Ms. Brooks. I think it is both true and untrue. I think we 
are contesting the Internet, probably not as effectively as we 
could and should be, but I think I won't go into detail, as you 
are probably already familiar with some of the Defense 
Department's efforts, as well as the efforts of other parts of 
the U.S. government, but it is certainly an area that is 
getting a tremendous amount of attention and we care about very 
deeply.
    But the only part I would squabble with, I think, a little 
bit, we are not always the right ones to do it. And this goes 
back to the issue of who has the home court advantage, who has 
the right skill sets.
    We often don't get it right, because we don't have the 
linguistic skills. We don't have the historical knowledge. And 
I think that there is a little bit of a Holy Grail fantasy that 
if we can only come up with this mystical alternative 
narrative, that somehow everyone will just say, ``Oh, goodness 
me, extremism is a terrible idea.''
    I think that is dangerously simplistic. There is no Holy 
Grail alternative narrative that we will put out there and that 
the minute potential extremist recruits see or read they will 
go, ``Gosh, I see the error of my ways.''
    It is so much more complicated than that and I think we 
barely understand the relationship between ideas, ideology, 
action, behavior, identity, group loyalties, family loyalties. 
All sorts of things can trump ideas.
    That said, I think that what we do need to do--this goes 
back to a point, I think, that we have all made in various 
ways--is empower other credible voices to make those arguments 
in a multiplicity of different ways, some of which we won't 
like, some of which we won't like, but which in sum total--they 
will be contradictory; it will be messy--but in sum total is 
often much more powerful in the Internet domain, as well as 
every other domain, than a controlled message to find the 
alternative narrative that we put out there.
    And I think this is in some ways the positive and negative 
lessons for us of the Arab Spring: that you poll protesters in 
Tahrir Square and elsewhere in the Arab world, they are not 
that interested in the United States. That is not what was 
getting them out there in the public squares. That is not what 
was motivating them.
    They weren't that interested in extremism either. They were 
there for economic reasons. They were there for political 
reasons. They were there, because they wanted futures and jobs 
and better educational opportunities. You name it.
    And in some ways the best thing we could do is stand back, 
enable them to speak and shut up, other than saying, ``We 
support you.'' So I think getting over the notion that there is 
some quick fix that we, the United States government, will find 
is something that we need to do and put more energy into 
empowering and enable others to speak, recognizing that 
sometimes we won't like what they have to say.
    Mr. Thornberry. Thank you.
    Dr. Paul.
    Dr. Paul. I think the quote you read represents a laudable 
sentiment, but I think the devil is in the details.
    So, first, I would like to reiterate that strategic 
communication is good for things other than just countering 
violent extremism. There is a whole host of foreign populations 
with whom we need to sustain positive relationships. And then 
it is a lot easier to prevent violent extremism before it 
starts by having a positive relationship and having started a 
dialogue long before something like that emerges.
    Second, this is harder than it seems. As Rosa indicated, 
there is no silver bullet. There is a lot of cultural context 
and nuance. This is not a trivial undertaking that just 
involves getting a few right messages on the Internet, finding 
the right radical extremist boards and offering counter 
arguments.
    And third, even if we become better at that and we do more 
in that domain, it is very likely that an organization such as 
Al Qaeda will have a residual radical hard core that no amount 
of persuasion is going to work on. And so there is going to 
need to be the--we can't talk our way out of this problem.
    Absolutely, the strategic communication piece is critical 
both in terms of making progress, necking Al Qaeda down to the 
radical hard core, who will need to be incarcerated or 
eliminated, hopefully, in such a way that it doesn't engender 
further recruits, that that is framed in such a way as to be 
communicated as effectively as possible.
    These are just the few things I wanted to observe.
    Mr. Thornberry. Okay. Thank you.
    Dr. Hamid.
    Dr. Hamid. Absolutely.
    I agree with the point that the counter narrative to Al 
Qaeda ideology has not been developed yet. And the United 
States may not be in a position or may not have the capability, 
really, to develop it, because it depends on the culture, on 
the religious jargon, like, for example, here in the article 
mentioned, it is intellectually corrupt and terrorism and 
politically incoherent. This doesn't make much sense in the 
mind of the jihadists.
    What makes sense in the mind of the Muslim world is if it 
is un-Islamic or Islamic. They think differently. They think in 
terms of religion. So, I believe a counter narrative has to be 
created, but the U.S. may play a supportive role here, not 
necessarily to get directly involved within the process of the 
production itself.
    The second part is the use of Internet. It is crucial in 
winning the war on terror. First of all, it can help the 
reformation efforts. I wrote recently an op-ed to show that how 
the worst parts of the Muslim world when it comes to 
terrorism--Yemen, Somalia and Afghanistan, in general--are the 
lowest in using the Internet, in Internet penetration.
    And not only that. The Internet can be used as a tool to 
launch a very powerful psychological warfare operation, as I 
mentioned, to fight here the impulse of hatred in 
``Brainistan,'' so psychological warfare by using the Internet.
    The Internet is tremendous tool in our hands, but we need 
to develop the content that can be really effective, because 
what works in our mind does not necessarily mean it will work 
in their mind. So what we see effective and crystal clear it 
will work, may not work at all and may be actually doing the 
opposite, may produce the opposite of what we are expecting.
    So we need really to go forward with using the Internet 
effectively to launch psychological warfare. However, we need 
to be very careful on the message and the content of the 
material to be effective on the other side. So I agree, really, 
with the view of the article.
    Mr. Thornberry. Thank you.
    Mr. Langevin.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here today.
    Mr. Chairman, without objection, I would like to read my 
opening statement, then go into questions if I could?
    Mr. Thornberry. Sure.
    Mr. Langevin. Again, thanks to our witnesses for your 
testimony. I found it fascinating so far.
    And more than 2,500 years ago the great Chinese strategist, 
Sun Tzu, wrote, and I quote--``To fight and conquer in all your 
battles is not supreme excellence. Supreme excellence consists 
in breaking the enemy's resistance without fighting.''
    But his real words still hold true today. America's 
interest abroad is not simply to rely on breaking enemy 
resistance, but also in enabling people around the world to 
share in the American ideals of protecting life, liberty and 
the pursuit of happiness.
    Since the horrible attacks of 9/11, our country has been 
forced to turn its focus on battles abroad to seek justice 
against those who murdered nearly 3,000 people. And while we 
have had recent victories against Al Qaeda and its supporters, 
including the killing of Osama bin Laden and suppressing major 
elements of the Taliban, much of our effort has been falsely 
billed in the Muslim world as a quest for vengeance.
    Now, some in the U.S. have fanned these flames with similar 
rhetoric, only sparking greater violence and outrage. It is a 
vital lesson for those seeking to maintain America's influence 
or leadership in the world community that words matter not only 
for the respect and image of our nation abroad but also our 
national security.
    Now, strategic communication must be a whole of government 
effort that employs American values of justice and liberty to 
strengthen ties with our friends and allies and influence or 
disrupt our competitors and foes.
    These goals are becoming increasingly difficult in a world 
of instantaneous global communication, where messages designed 
for one audience can easily spill over and be confused by 
another.
    Furthermore, these audiences are not simply empty vessels. 
No communication takes place in a vacuum, and certainly any 
American engagement overseas can and will be spun and used 
against us.
    We must also be aware that we are targets of other 
strategic communication efforts and must order our own 
impressions and views. Take, for example, the recent quote from 
the People's Liberation Army Chief General Chen Bingde, who 
during Admiral Mullen's recent visit to China, noted that 
America should reduce its spending on defense.
    Should the statement be taken as a legitimate expression of 
Chinese concerns with a strong and well-funded military, or 
rather is it intended as ammunition for another audience in the 
U.S., who would seek to stop any defense efficiencies, despite 
a massive deficit owed largely to China and declining force 
responsibilities in Iraq and Afghanistan? This is just one of 
the main challenges facing our strategic communications abroad.
    So with that, I just want to thank our witnesses, again, 
for your time today. Again, I have appreciated your testimony 
and look forward to continue to review the printed material 
that you have provided to us and I appreciate, you know, the 
challenges that we do face. The United States, obviously, has a 
good story to tell. It is a story of strength through pluralism 
and diversity and justice through fairness and compassion.
    We must not lose the opportunities to tell the story when 
we are able, so that our actions abroad may be rightly 
interpreted as supporting the ideals upon which our 
Constitution was based and which we wish for men and women 
around the world.
    With that, I would like to just turn to a question. Last 
Congress I introduced a bill to establish a quadrennial 
national security review that would basically take a whole of 
government look at our national security challenges and 
resources to meet these threats.
    My question is, how should strategic communications be 
synchronized with direct and indirect efforts, such as 
humanitarian assistance operations? And will we benefit from a 
high-level look at these priorities and resources across the 
board?
    Ms. Brooks. Yes, we would.
    I think that your idea of a quadrennial national security 
review is a very good one. I personally would also love to see 
us move towards a more unified national security budget, 
because I think that the increasingly archaic distinctions that 
we draw between what the State Department does, what the 
Defense Department does, which made sense in an era of rather 
different, more state-oriented threats, don't make much sense 
any longer.
    And yet our committee processes here on the Hill, the way 
our executive branch is structured and certainly the way we 
present our budgets just sort of calcifies arbitrary lines that 
really are doing us a disservice.
    And I think that any effort--I think we are still obviously 
very far away from that--but any efforts to force the executive 
branch as well as invite people here on the Hill and in the 
media to think of this as a unified set of problems, not as a, 
over here you have got State, over here you have got AID 
[Agency for International Development], over here you have got 
the Defense Department, would be very valuable.
    I think that one of the tough institutional challenges that 
we face at the Defense Department and then I think is faced at 
every other executive branch agency has been sort of wresting 
strategic communication away from the communications experts, 
which is not to say that that is not extremely important.
    But your point about how do we better synchronize it with 
humanitarian assistance and other issues really goes to a point 
that I made and that Chris also emphasized, that strategic 
communication, to be effective, is about aligning all of the 
tools at our disposal, our actions, as well as our words. And 
humanitarian assistance among other things can be a vital 
strategic communication tool. If we stick it off in a closet 
with public affairs, we don't tend to realize those synergies 
at all.
    So I think that that is partly just a bureaucratic and 
structural challenge for us and some of the internal reforms 
that while I was at the Defense Department we worked on. We are 
very much geared at how do you integrate strategic 
communication thinking across the departments so that it is not 
deemed as it is on the sort of theory of every marine as a 
rifleman, everyone should be a strategic communicator and be 
thinking about those issues, but it is very hard to do.
    Dr. Paul. So a really excellent question, because it 
attacks two critical issues in this area--resources and this 
issue of synchronization of actions. So the question is very 
much mindful of the fact that actions communicate.
    I will echo Rosa. Yes, more resources are necessary for 
this. When USIA [United States Information Agency] was 
disestablished, we lost as a nation a lot of capability in this 
area. Some of it was rolled into State. Some of it was just 
lost.
    We have been building some capabilities in these areas, and 
I understand this is a time of fiscal austerity. And if public 
diplomacy and strategic communication are national priorities, 
and they should be, they need to be resourced like they are.
    Now, turning to the coordination and synchronization issue, 
that is a real challenge. Something inside individual 
departments that can help is the development of communication 
mindedness. If the people who are doing humanitarian aid, who 
are doing other kinds of policy have become conditioned to ask 
the question, what are the communication implications of what I 
am about to do and who else might I need to coordinate with, 
that will go a long way.
    But at the end of the day, if there are different 
departments that have different portfolios, it is easy to say 
the phrase ``whole of government.'' It is very difficult to 
actually do whole of government integration.
    Part of the challenge there is within the executive 
departments. It is almost impossible for one executive 
department to have anything approaching authority over another 
executive department. The way it is structured just doesn't 
allow that.
    So you definitely hit on the challenge. There are some 
possible solutions that can be achieved collaboratively and 
through training and through constant reminders of 
decisionmakers and reminders to decisionmakers and commanders 
that actions communicate and that these things need to be 
coordinated and integrated. But that is a real challenge and 
remains a challenge.
    Dr. Hamid. Okay. Thank you.
    Thanks for the question. I see two parts. My answer will be 
in two parts. The first is, when we have limited resources, I 
believe it is the time when we should focus on how to improve 
the efficacy and efficiency of using these resources. So it is 
not just the amount of resources. I believe what is more 
important is how to improve the same resources, even less 
resources, to be more efficient.
    Regarding the synchronization of the strategic 
communications and the humanitarian effort, this is absolutely 
needed. In cognitive psychology models in memory, in human 
memory, there is a concept called or a theory called the 
spreading activation model that means that when you remember 
something like the word ``red'' you remember apple or red car 
or blood, some related information. All information are like a 
network of related data.
    So when you remember in the Muslim world, for example, the 
word you say, it can be either linked to positive or negative 
things. Now it is more linked to negative things. That is why 
the image is not that good. The aim of using humanitarian aid 
can play a significant role in changing these links to make it 
positive.
    I will give you an example that happened in our country, 
Egypt, my country, my original country, Egypt, that in the 
1980s after Yom Kippur war, after long period of hatred to 
America during Nasser's time, the United States AID, USAID, 
used to send some chickens directly to the hands of people. And 
the color of the cover of the bag was--or the color of the bag 
there was something like the U.S. flag. It was not the flag, 
but with same colors. It represented America. We called it the 
American chickens.
    And what happened when Egyptians used to eat these 
chickens--believe me, this was happening--we used to pray, say, 
``God bless America.'' The taste was so good, and it linked, it 
created a link in the human brain between the word ``USA'' and 
the good taste. So it was a positive link toward USA.
    And during that time, the image of U.S. was marvelous. So 
synchronizing the humanitarian aid with strategic 
communication, they should work together, because you can use 
the humanitarian aid more effectively when you, for example, 
add the image of the flag, and you can put the two flags of the 
two countries so that it is not misunderstood in a negative 
way. So it creates a link toward the flag of the USA, the USA 
via using humanitarian aid more effectively. So I fully agree 
with this point.
    I call this chicken diplomacy, by the way.
    Mr. Langevin. Thank you all for your answers.
    I yield back.
    Mr. Thornberry. Mr. West.
    Mr. West. Thank you, Mr. Chairman and Mr. Ranking Member.
    And thanks to the panel for being here.
    And Dr. Hamid, I absolutely applaud you for your stance----
    Dr. Hamid. Thank you.
    Mr. West [continuing]. And your efforts.
    I spent 22 years in the military. And as an artillery 
officer, one of the things that we saw develop was the 
understanding that you have lethal fires, but then you also 
have this thing called nonlethal fires. And when you do your 
strategic studies, they will teach you that there are four 
elements of a nation's power, and that is the DIME theory--
diplomatic, informational, military and economic.
    So I think one of the things we have not really been able 
to do a good job of is really understand how do we leverage the 
nonlethal fires, the information operations, as part of our 
national power. And I think that when you look at the fact that 
we continue to talk about a war on terror, and I think you will 
agree that terror is a tactic, so our nation cannot really 
fight against a tactic. That is something down the tactical 
level.
    So I think we have missed the boat as far as our strategic 
communications, and until we can clearly understand and 
identify who the enemy is and their goals and objectives, that 
we are not going to be successful in bringing together a 
targeted, strategic type of communications message which, as 
you just said, should not be in the realm of communicators. It 
should be in the realm of operators. And I think that is an 
important thing.
    So my question to you all is this. Do you think in 
developing a strategic communications plan--and we have been at 
this for 10 years now--that we have truly failed to understand 
the impetus behind which our enemy combats against us?
    And also, I would ask a second question. Do you think we 
are narrowly defining our enemy because if Al Qaeda was to 
change their name tomorrow, does that mean that we have won?
    Ms. Brooks. That is a good question.
    I think that, as you said yourself in your comments, 
terrorism is a tactic. It is not an entity called ``terror.'' 
It is a method. It is an asymmetrical method of warfare, and 
those with less power will at times turn to it and that there 
is importance in being very precise about who we are talking 
about when we talk about the war on terror.
    So to the question of, do we understand the impetus behind 
our enemy, is I think it depends which one. The Taliban is 
different from Al Qaeda. Al-Shabaab is different from main Al 
Qaeda. Hamas and Hezbollah are very, very different from Al 
Qaeda.
    And I do think that we do ourselves a tremendous disservice 
when we lump them all together. They have elements in common, 
may draw on similar modes of support, may have similar 
ideological elements, but they are not the same. The 
grievances, the issues that motivate their adherents are 
fundamentally different.
    And I think that one of the, again, efforts that we have 
really certainly worked on, I know, during my time with the 
Defense Department, and I think that the U.S. in general has 
made some significant progress is in disaggregating and saying, 
``You know, you can't fight if you don't understand who you are 
fighting against.'' I mean, you know, again, we do ourselves a 
real disservice if we don't disaggregate.
    Actually, if you will indulge me, one other metaphor I 
really wish we could put to rest is the war of ideas metaphor 
which, again, I think, as with the war on terror, tends to 
confuse us more than it actually enlightens us.
    As we have said earlier, you know, there is no one meta-
narrative that magically ends extremism or ends terrorism. We 
don't really understand the relationship between ideas and 
action.
    There are lots of people who are exposed to and may be 
adherents of violent extremist ideas, but who don't become 
terrorists or don't fight against us. You know, to paraphrase 
the NRA [National Rifle Association] bumper sticker, you know, 
``Ideas Don't Kill People. People Do.''
    And we need to understand that I think at times the 
fixation on extremist ideology can really blind us to that sort 
of down and dirty work of really disaggregating and saying, 
``What is going on in this country in this province with this 
demographic group that is motivating them to take action 
against us,'' so that we can tailor our responses accordingly.
    Dr. Paul. I think the way you framed your question provides 
a really important frame, the separation between fires--lethal 
fires and nonlethal fires. In the military we really understand 
how to do lethal fires. There is a protocol, there are targets, 
there is a desired effect, there is a variety of different 
ammunitions that might deliver that effect. We know and we 
understand that.
    Not so much in the nonlethal fire side, on the information 
operation side. It is harder to define the targets. It is hard 
to know what the desired effect really is. It is harder to 
articulate that, and it is harder to measure that.
    So, bringing that up to strategic communication--you asked 
about strategic communication strategies and strategic 
communication plans--I think on some level it would be best if 
we didn't have a strategic communication plan, but just had a 
plan that included strategic communication.
    One of the recommendations I make--and if you will indulge 
me for a moment, I will elaborate--is that we should elaborate 
information end states. This is a piece of advice that comes 
from Professor Dennis Murphy at the U.S. Army War College. It 
is one of the best pieces of strategic communication advice I 
have heard, so I try to repeat it whenever I have the chance.
    Dennis Murphy says, ``Hey, we should change the guidance 
for the commander's intent such that commander's intent be 
required to include an information end state.''
    So if the traditional commander's intent, to give a simple 
example, is remove--or the desired end state is remove the 
insurgent presence from village X, if an information end state 
is required, the commander might also make clear ``remove the 
insurgent presence from village X whilst retaining the attitude 
of noncombatants as neutral or better towards the friendly 
force.''
    With that caveat, with that extra information end state, 
now subordinates have a lot more clear guidance to execute on. 
And if they don't feel comfortable with the different 
approaches necessary to do that, then they know they need to 
reach outside their own stovepipe and go find someone who has 
that expertise.
    Thank you.
    Mr. West. Thank you.
    Dr. Hamid. Thanks for the question.
    Regarding the first question, have we failed in our 
strategic communications with information warfare, my answer 
is, yes, we certainly have failed. Until today terrorists are 
generated in higher rates. We have homegrown terrorism here in 
the United States in the last couple of years that exceeded 
previous 8 years since September 11. So certainly, the evidence 
is showing that we are not very successful on this front.
    The other question, have we failed in defining, you know, 
the enemy, my answer is, certainly, yes. We failed basically to 
define the word ``radical.'' We are fighting like radical Islam 
sometimes, and we say we support moderates.
    But when you ask people how would you define ``radical'' 
and how would you define ``moderate,'' what are the parameters. 
It is like a doctor going to do surgery for cancer without 
defining the criteria for cancer.
    We failed to understand that relationship between the 
ideology and the actions. So we simply focus on like, the 
doctor focusing on the abscess and ignoring the diabetes that 
caused the abscess.
    You treat the abscess, you have another abscess. You treat 
it again, you have another abscess. Until you recognize the 
underlying cause and the mechanism of diabetes, obesity, 
aggravating it, you see the holistic picture, then you cannot 
cure the condition.
    And I see we ignore the common factor in all the groups 
whatever you call them, whatever their names are, they share 
one thing, a common ideology that tells them to kill the other 
or not to be tolerant to the other or to hate the other. And as 
long as we do not confront this ideology effectively and weaken 
it via education, via psychological warfare operations, via 
other means, we will not be able, really, to really control 
this problem.
    Mr. West. Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for being here.
    I appreciate you talking about the whole of government 
approach because, you know, for years that was very 
frustrating, because one, you know, you could really see why we 
needed to do that, and yet it was clear that we weren't quite 
there.
    But, I wonder if you could--is there an example, a positive 
example of where that whole of government across entities and 
with proper communication occurred and could be looked at as--
and actually we would have even the results of what that might 
have changed in terms of--so can we look to any of that? What 
do we learn from that or what do we learn from the fact that we 
can't find an example like that?
    Dr. Paul. I have one. Unfortunately it isn't a U.S. one. 
But the Australian Regional Assistance Mission Solomon Islands, 
RAMSI, they went in there. It is a peace enforcement and 
governance restoration mission, I think, in the 2005/2006 
timeframe. And they had amazing whole of government 
integration.
    How did they do it? They had the three commanders on the 
ground, the representative of their foreign ministry, their 
state department, the police representative they sent and the 
military representative.
    The three of them went around joined at the hip. If ever 
they spoke in public, one was at the podium, the other two sat 
behind him or her. If a question came up that required an 
answer that they hadn't already reached a consensus on, they 
would turn around and put their heads together and get the 
Regional Assistance Mission Solomon Islands answer. And so they 
always had integration.
    That may not always be practical, but there is one example 
of success.
    Mrs. Davis. Were they approaching that from the--were they 
understanding that within the context of strategic 
communication? Or they were doing that, perhaps they would say 
because it was the right thing to do, but because they needed 
to try and carry out a mission that required--I am thinking of, 
you know, the Africa Command, but maybe ``command'' is using 
the wrong word, you know, AFRICOM, but where we tried to put 
people forward who don't only represent the military, the 
Pentagon, and----
    Dr. Paul. They didn't use the phrase ``strategic 
communication.'' They did it in the name of unity of command, 
which is an important strategic communication principle, and 
they were very mindful of the message their force and their 
actions were sending within the separate command stovepipes, 
within the military stovepipe, within their civilian police 
forces.
    They were very cognizant of how their behaviors, how their 
dress, what kind of messages those sent to the civilian 
population. It was very important to them to not--to be 
internally consistent and not be contradictory.
    So while they might not have used the phrase ``strategic 
communication,'' I would argue that what they were doing was 
very much in that vein and with that intention, a whole of 
government continuity and coherence.
    Ms. Brooks. I think it partly depends on the scale. I think 
it is easier to find good examples on a very small scale than 
on a very large scale just because, you know, the nature of 
this is a big government, it is a big country, it is a big 
world, the bigger the issue.
    Mrs. Davis. Right.
    Ms. Brooks. You can say, ``Here are areas where we did 
better or worse,'' but it is very tough to say, ``Here is a, 
you know, unequivocal, wholehearted success.''
    I can think of a couple of examples of things that I think 
that we got better or got right. I can think of more, but I 
will just mention a couple.
    One which was something, a very difficult issue where I 
think we certainly got better, was in the context of civilian 
casualties in Afghanistan, where there was a very conscious 
shift, which was very much a whole of government shift, from 
saying our first reaction to press reports or other reports of 
civilian casualties caused by coalition forces is going to be 
to say, ``We don't know what you are talking about. We are 
going to do investigation. They were all bad guys anyway. What 
do you mean,'' to shift to saying straight off the bat, 
everybody saying, ``If our actions caused civilian casualties, 
we will do everything we can to correct it. We are so sorry if 
there has been any loss of innocent life. Nothing we can say 
can change the fact that people have lost loved ones. We know 
that.''
    I think that shift in itself was actually quite significant 
and took a real conscious effort to sound less defensive, to 
say, you know, loss of life is loss of life. It doesn't matter 
if it was justified. The grieving parents or relatives are 
still grieving. I think that was getting it better and in 
reaction to learning the hard way that we were getting it 
wrong.
    Another more recent example of one, I think, all things 
considered, the government did a pretty good job with the death 
of Osama bin Laden. I think that we fumbled a little bit on the 
details of what happened in terms of how the story came out, 
but I think it was actually handled in precisely the right way 
across the government, which was supposed to say, ``This is 
something we have been trying to do for a long time, we said we 
are going to do. We did it. This guy is a bad guy. He is not 
here anymore. Good thing.''
    But, also, without turning it into a moment of exulting in 
vengefulness or exulting in death, or lionizing him more than--
inadvertently raising again the prestige and the profile of Al 
Qaeda, that it was the right degree of ``bad guy, he is dead, 
we got him, we can do these things,'' but also sort of saying, 
``And, you know what, he is not that important anymore. Move 
on.''
    Mrs. Davis. Yes.
    Dr. Hamid. I actually, I was going to give the bin Laden 
example also as a matter of cooperation, but I don't really 
have several other examples, really, in my mind about this sort 
of cooperation. I see from the other side that actions of the 
U.S. government seem to be disassociated from one another.
    One part of the government is doing something. Another part 
is doing something else. Sometimes this is beneficial, because 
if someone did a mistake, the other one can try to correct it. 
But in general, things must be synchronized more effectively 
together, I believe.
    Mrs. Davis. Thank you.
    Mr. Chairman, may I just ask one quick question, because I 
know we don't have too many of us here.
    You know, I was really interested in your comments, Dr. 
Hamid, about weakness--respect and weakness.
    Dr. Hamid. Yes.
    Mrs. Davis. And particularly related to the hijab, the U.S. 
women going in----
    Dr. Hamid. Yes.
    Mrs. Davis [continuing]. And wearing----
    Dr. Hamid. The hijab.
    Mrs. Davis [continuing]. The hijab. And also thinking about 
how those of us who--women who go in also cover our heads. We 
don't really----
    Dr. Hamid. Yes.
    Mrs. Davis [continuing]. Wear the full, but we are told to 
do that, and we do that out of respect.
    Dr. Hamid. Yes.
    Mrs. Davis. Where is--how----
    Dr. Hamid. Ah, how is it seen as weakness?
    Mrs. Davis. Where does one go for that information?
    Dr. Hamid. Yes. The other side simply sees it as you are 
subjugated to Islam. The word ``Islam'' means submission. It 
was supposed to be submission to God, but it is used 
politically in different ways to submit others to their values 
of their religion.
    You see, the radicals everywhere are trying to submit other 
people to their will. In Somalia, from Afghanistan, the 
Taliban, even in the Salafis in Egypt recently were trying to 
submit others. So they see you have submitted to their value 
system. So you see, they are bowing to us. This is how they 
will interpret it. We are winning. We are victorious.
    So whatever you do on one hand to really show victory and 
bring the psychology of defeat in the mind of the enemy, the 
enemy will always go and say, ``Look, they are defeated. They 
are bowing to us. They are following our values.''
    So this is how it is seen as weakness. This is why what I 
am saying is to show respect, yes, absolutely, but be very 
careful of doing this without showing signs of weakness. So you 
can still achieve the positive value of showing respect to 
others and without the negative effect of showing weakness, and 
weakness from their side, from their point of view, not from 
your point of view. From your point of view you can't see it, 
but this is how it is seen on the other side.
    Mr. Langevin. Thank you, Mr. Chairman.
    And after this question I unfortunately have to depart for 
a meeting that I have in my office, but it is important to 
stay. And, you know, I am fascinated by the discussion here 
today, and I understand how important these things are and how 
they matter.
    Obviously, the conflict in terms of where we are today has 
been years in the making, and particularly the conflict with 
violent jihad.
    Dr. Hamid. Yes.
    Mr. Langevin. How do we really turn this around? And one of 
the things that really that I struggle with and I think we are 
all challenged by is the fact that if you look at, for example, 
throughout the Quran there are numerous examples where it 
actually calls for followers to commit violent jihad, that it 
calls for acts of violence----
    Dr. Hamid. Yes.
    Mr. Langevin [continuing]. To subjugate. And it is almost a 
duty----
    Dr. Hamid. Yes.
    Mr. Langevin [continuing]. To do that.
    It is not like in some cases in the Bible, as I understand 
it, there are certain cases where there might be call for acts 
of violence, but they are almost subject to interpretation. It 
might be more vague than it is in the Quran, which seems to be 
very direct----
    Dr. Hamid. Yes.
    Mr. Langevin [continuing]. In calling for acts of violence.
    So, if that is the case, how do we turn this around? How do 
we win, you know, in the sense of--and achieve a peaceful 
outcome?
    Dr. Hamid. Thank you for this question, this vital 
question. And I noticed, for example, I read the Bible when I 
was young, and in Deuteronomy you will find, for example, fight 
against Amalek, for example, specific groups. So it is not a 
general fight for everyone else.
    But I will give you a personal story of mine. One day I was 
praying in Egypt when I was young, beginning my real story in 
religions and in thinking. And I read a verse in the Quran that 
says [Arabic]--``Kill the infidels wherever you find them.''
    And my conscience couldn't accept it, so I asked a Salafi 
friend of mine. His name was Ali. He was radical. And he said 
to me, ``Yes, we have to fight the infidels, and it is 
obligation on us.''
    I went to a Sufi scholar, which is a mystical form of 
Islam. He said to me, ``Just love every human being and be good 
with every human being.'' And this was not satisfactory. I said 
to him, ``It is written. It is mentioned in the Quran. It is 
written here.'' He said to me, ``[Arabic],'' which means ``in 
the day of judgment you will understand the meaning.''
    So, for me I was not so patient to wait for the day of 
judgment. I just followed the one who is giving me the literal 
meaning.
    Later on in the reformation efforts I am doing, I realized 
that all the verses in the Quran that talk about jihad or 
violence use the expression ``the'' before the expression 
``infidels''--al-kafioun, al-moshaka. ``Al'' means ``the'' in 
Arabic. It is like telling you I am going tomorrow to a white 
house or I am going tomorrow to the White House. It is 
completely different.
    Just emphasizing the value of ``the'' or ``al-a'' before 
the word ``infidel'' in the Quran can simply solve this 
problem, because once you say ``the,'' you define the meaning, 
the violent text to this specific group in the early stages of 
Islam. You can't generalize it to everyone else.
    So, there is a way within some linguistic analysis and 
interpretation really to limit the meaning of the violent jihad 
to some specific group only in the early stages of Islam.
    So, it is certainly possible to, through different ways of 
interpretations, through language, to really limit. And you 
take it literally from me, all the violent text of jihad can be 
limited to the early stages of Islam without being currently 
applicable in our modern times.
    So there are ways to do this. It is not impossible. It is 
certainly possible.
    Ms. Brooks. If I can add a thought on that, I think I defer 
to Dr. Hamid about all of this, and I am sure it is right that 
there is a segment of the population for whom that sort of 
textual analysis can make an enormous difference. At the same 
time, I think there is a real danger of placing too much 
emphasis on ideology.
    Islam has been around for 1,500 years, more or less, and 
the rise of extremist Islamic terrorism is a pretty new 
phenomenon. And even today the vast majority of Muslims in the 
world have nothing to do with it.
    So, I think, assuming that our problem is this pernicious 
ideology that comes out of the Quran can be very misleading, 
and this goes back to the earlier discussion of what is the 
relationship between ideas and behavior.
    You know, for the average recruit to extremist action, it 
may have far more to do with what their brother suggested that 
they do or economic need or fear or anger about a very specific 
policy, whether it is of the United States somewhere.
    They may be wrong. They may be misunderstanding it, but a 
perception about Palestine or Israel for instance. And I think 
that we would be wise to not overemphasize the role that 
ideology--religious or otherwise--plays in what are violent 
social movements that often have many complicated causes, some 
of which are nationalistic, some of which are economic.
    You know, again, not to suggest that there isn't a very 
important role for a segment of people in doing that, but I 
sometimes think that we get so obsessed with that we have got 
to counter this ideology that we give too little attention to 
the other causes that motivate people to become a recruit.
    I know that I am not an expert on radicalization, but I 
have colleagues who spent a great deal of time looking very 
concretely at case studies of how does person A end up being 
radicalized, and it is pretty rare that ideology has much to do 
with it, you know, except as kind of a blanket justification 
that becomes convenient when someone asks. It usually has much 
more to do with who their friends are, who is paying them, et 
cetera, et cetera.
    Dr. Hamid. Yes. Would you mind?
    I am not denying the role of other factors. There are other 
facts that can play a role. However, we should ask ourselves a 
basic question. Why the socioeconomic and political factors 
that some people say it makes someone a terrorist? Why they do 
not affect, for example the Christians in the Middle East, who 
live under the same socioeconomic and political circumstances. 
Like we haven't seen the Christians in Iraq, for example, being 
suicide bombing or beheading other people.
    So it is obviously the problem is coming from specific 
group here. So, if the factor, the external factor was the true 
cause of the problem, it shouldn't distinguish between a Muslim 
or Christian or a Jew. It should affect all the population.
    So you see terrorism development in any poor area, like 
from Brazil to India for example, but that is not the 
situation. That is what makes the ideology playing the pivotal 
role, but yet I am not saying it is the only role. There are 
other contributing factors.
    Dr. Paul. It is complicated. And I won't pretend to have 
the answer. I will make two observations.
    First, given that this conflict was years in the making and 
did take a long time to brew, we should accept that it may well 
be years in the unmaking.
    And second, that the kinds of things that will help are 
kinds of things we are talking about--promoting engagements, 
encouraging shared understanding, trying to identify and 
emphasize shared values, share information, and better 
understanding of radicalization processes and connecting 
engagements and promotion of shared understanding in programs 
to try to diminish radicalization processes.
    Mr. Langevin. Very good.
    Thank you all for your testimony today. It has been 
valuable.
    And, Mr. Chairman, thank you for holding this hearing.
    Mr. Thornberry. Thank you. Appreciate it.
    Ms. Brooks, you all were really talking about this, and I 
acknowledge that there is no one factor that makes one go blow 
yourself up. But certainly during the cold war, we fought an 
ideological struggle as well as had troops in Europe and 
nuclear weapons. You know, there was a multi-front sort of 
effort to combat the evil, I will say, that was coming out of 
the Soviet Union.
    So isn't there an ideological aspect to the fight against 
those who want to come kill innocent people in the name of 
religion also?
    Ms. Brooks. Absolutely, and I don't mean to suggest that 
there is no ideological aspect. I think I would just emphasize 
what you just said. It has got to be a multi-front battle.
    And I think that we err, I think, when we get a little 
overly simplistic and start thinking it is a magic bullet. If 
we could only refute the ideology, if we could only come up 
with the alternative narrative, that is when we start getting 
ourselves into trouble.
    It is a component. The nature of the component is probably 
different with different groups of people. At risk of repeating 
myself, it is sort of disaggregate, disaggregate, disaggregate.
    Mr. Thornberry. No, and I think that is a fair point. But I 
guess what we are trying to evaluate, as somebody said, 10 
years on into this, is to what extent the ideological part of 
this is appropriate for the U.S. government and how well the 
U.S. government is doing it.
    And I think at least both of you have said, it is not just 
a counterterrorism issue. There is a strategic communications 
element to a whole variety of engagement with the world.
    Ms. Brooks. Absolutely.
    Mr. Thornberry. And I acknowledge that.
    But I guess we are kind of taking the terrorism as a case 
study here today mostly. But as that passage I read indicates, 
at least there are some who believe that if we can be more 
effective, we can decrease Al Qaeda's recruitment and, to 
borrow a phrase, have it wither on the vine.
    Ms. Brooks. Yes. I think it is a question of balance, as 
ever. I mean, can we be more effective at exactly that? Should 
we be? Yes, absolutely. And I think that there are actually 
some very interesting projects, some of which you are probably 
aware of, for instance the center at West Point that I can't 
remember the name, Center for the Study of Terrorism, something 
like that----
    Mr. Thornberry. Center for Combating Terrorism. Yes.
    Ms. Brooks [continuing]. That does these extremely 
interesting studies, close readings of documents released by 
leading Al Qaeda figures. It points out contradictions, et 
cetera, et cetera. It puts them up on the Web. That one tiny 
little project, which is not very expensive, actually there is 
some clear evidence that that makes a difference, and it gets 
them very upset that for the segment of people for whom 
ideology is important, that that matters.
    Mr. Thornberry. Yes.
    Ms. Brooks. And so, I don't at all mean to suggest that we 
shouldn't do it and that we shouldn't do it better. We 
absolutely can and should. I think it is just that when we 
overvalue the ideological component and forget to think about 
everything from that war via chickens, humanitarian assistance 
piece to----
    Mr. Thornberry. Yes.
    Ms. Brooks [continuing]. To another piece of your question, 
thinking about what is it that we don't do that well but that 
other people can do much better, and this goes back to 
empowering other voices, empowering both the U.S. private 
sector, because there are just things that the U.S. government 
shouldn't do and----
    Mr. Thornberry. Yes. I want to get to that whole subject in 
a second.
    Ms. Brooks. Yes.
    Mr. Thornberry. But I take your point.
    Dr. Hamid, we had witnesses at our last hearing----
    Dr. Hamid. Yes.
    Mr. Thornberry [continuing]. Who suggested that one of the 
most effective messages, whether it is from us or from others, 
is the idea that these terrorist acts kill innocent Muslims.
    Dr. Hamid. Yes.
    Mr. Thornberry. And so, the fact that you have innocent 
members of the same religion, who are being slaughtered----
    Dr. Hamid. Yes.
    Mr. Thornberry [continuing]. With these acts, do you think 
that is effective to use?
    Dr. Hamid. Absolutely. Using this fact that the majority of 
the victims of terror are Muslims can be used effectively in 
strategic communications to show that the whole war against the 
terrorists is actually a war that protects the lives of many 
Muslim people.
    And, ideally, if there is some moderate Muslims coming this 
whole image to support what the U.S. is doing against the 
terrorists, it's not just selfish action that only cares for 
the personal interest, but it is much broader than this. It is 
far more than just the security of America. It is security for 
the whole world, including many Muslim innocents.
    In fact, one of the best ways to achieve this is to show 
the Muslim world the impact of terrorism on the Muslim society. 
One of the very sensitive areas is the impact on women. Many of 
the terrorist acts in Pakistan and Afghanistan ended in orphans 
or widows. Some of them, for example, had to do some immoral 
things because of the poverty and the need.
    If these stories are emphasized to the Muslim world, they 
will really start to hate terrorism, and it can help a lot in 
preventing the process of radicalization. So, certainly, this 
is one of the most fundamental areas that could be used.
    Mr. Thornberry. Dr. Paul, in your comments you said 
something about we need to make sure that what we do is more 
effective. Ms. Brooks says there is too much emphasis on 
metrics when we talk about strategic communications. My 
question is, how do you know what is effective if you don't 
have some way to measure the results?
    Dr. Paul. Another really good question.
    Yes, it is very difficult to do effective measurement in 
this area. When we look at industry, they are engaging in 
similar kinds of challenges, sharing ideas and engagement 
pathways. But at the end of the day, they have a sales metric. 
Either their product is being bought or it isn't.
    It is much harder to capture measures globally. It is an 
area we can get better at. There is something to learn from 
industry. There is something to learn from social science. When 
I speak to junior officers about things that they can do in 
smaller areas of responsibly, I talk about field expedient 
measurements.
    There is something to the old aphorism that the plural of 
``anecdote'' is ``data,'' that if you collect impressions, 
patrol impressions, crowd impressions over time, and plot those 
kinds of events against exogenous factors, significant events 
and other areas of responsibility--elections, things like 
that--and if you can plot a trend over time, then you can see 
and compare that to the kinds of things you have been doing.
    And this is at a very small scale. There is some traction 
there. At the bigger scale, there is polling. It is not that we 
are completely ignorant of how to do measurement in this arena. 
There is room to get better and, of course, measurement isn't 
free.
    Mr. Thornberry. Yes. Yes.
    Ms. Brooks, let me go back to the private sector for just a 
second. One of the things that struck my attention years ago on 
this was someone I knew in the political consulting world went 
to run a campaign in a Muslim country successfully for 
president and then wanted to come here and offer his services 
to the United States government for free. I mean, he made all 
the money he needed to make, you know, but there is no way for 
him to plug in.
    And in spite of knowing a lot of folks at the State 
Department at that time and around the administration, it was 
simply impossible. And so that is one of the reasons that 
somebody referred, I think, to the Defense Science Board study 
that I thought their suggestion of having a FFRDC [federally 
funded research and development center] that is separate from 
the government, where private industry could plug in, and some 
of those skills from Madison Avenue or international political 
consulting could be useful.
    When you did your review for the administration, did that 
figure in at all or is that all a pipe dream, that government 
is government, private sector is private sector, and if you 
want to come work for government you have got to come be a 
civil servant or something.
    Ms. Brooks. I think on the level of principle, everybody 
agrees with that, that we ought to do more with the private 
sector, we ought to enable the private sector more effectively. 
I think where it breaks down is implementation, and I think it 
is quite shocking.
    I think we literally just have astonishingly few vehicles 
to enable private sector action even when, as in your example, 
we have people literally coming to us, you know, from very 
large corporations, universities, non-government saying, ``How 
can we help?''
    We don't know what to do with them. We don't know what to 
tell them. We say, ``Thanks, we will get back to you,'' and we 
never do, because we have no vehicles for using them.
    That is for a lot of different reasons. Some of them are 
reasons of bureaucratic rigidity and the usual stupidity. It is 
not in any--you know, it doesn't help anyone to do it, so they 
don't. It is not their job.
    Some of it has to do with legal and ethical restrictions 
that have been put there for very good reasons. It is if you 
are in the executive branch, it is actually quite astonishing 
when you make the mistake of asking a lawyer something like, 
``Well, could we ask Google to help us with,'' or whatever the 
question may be.
    The answer is usually, ``Don't even think about it. Don't 
you dare,'' often because of legislative restrictions that are 
in place to prevent conflicts of interest, et cetera, et 
cetera.
    How we untangle that I don't know. But I actually think it 
would be--a fabulous project for folks here to undertake would 
be to really do an evaluation of both the sort of the 
bureaucratic reasons and the statutory reasons. But that is so 
hard, because I absolutely agree our greatest strength of the 
country is not our amazingly streamlined executive branch, 
sadly.
    Our greatest strength as a country is our people and our 
organizations, and finding better and more effective ways to 
let them do what they are good at is something that strikes me 
as extremely urgent, and we are shockingly bad at it.
    Mr. Thornberry. Yes.
    Yes, Dr. Paul.
    Dr. Paul. If I may, in my written testimony there is a 
brief reference to the Woodrow Wilson Foundation or Institute 
for International Scholars, SAGE Initiative, Strengthening 
America's Global Engagement, that has taken about a dozen 
reports recommending reforms in public diplomacy and strategic 
communication, all of which advocate some kind of--like the 
Defense Science Board, some kind of semi-independent or 
independent entity.
    They have been working since September of last year with a 
large consortium of think tanks, individuals from industry, 
from governments, from advertising, from academia, to 
synthesize some of the best ideas in a no kidding business plan 
for such an entity and hope later this year in a bipartisan way 
to advance such a thing.
    If such an entity came into being, that would the perfect 
opportunity for a dollar-a-year man who wanted to come in and 
share expertise or provide skills to plug into that 
organization, making that expertise available to the 
government, leveraging the private sector, and getting public-
private partnership benefits.
    Mr. Thornberry. Yes, well, I look forward to seeing what 
they come up with.
    Now to pass something through the Congress, we have the 
same jurisdictional issues that you referenced earlier, but I 
think there are a number of us at least who are interested in 
exploring that.
    We haven't talked about Smith-Mundt, Dr. Paul. How big an 
impediment is that just being effective in our communication?
    Dr. Paul. It makes a difference. Just for background, the 
Smith-Mundt Act is actually the Information Exchange Act of 
1948 amended a couple of times. The principal complaint about 
it isn't that it established the foundation for public 
diplomacy, which it did, but some of the later amendments 
prohibit dissemination of information intended for foreign 
audiences to the domestic U.S. public.
    I was at a hearing for the U.S. Advisory Commission on 
Public Diplomacy earlier today. Sat next to me was Jeff 
Trimble, the executive director for the Broadcasting Board of 
Governors [BBG], the folks who do Voice of America and all the 
different Voice programs.
    And he reported some sad instances where domestic 
populations, domestic radio stations and broadcasting 
communities within the United States, wanted to have access to 
BBG Somali language broadcasts or BBG Urdu language broadcasts 
for domestic populations and when they made a formal request to 
the BBG for those broadcast, the BBG, because of the statutory 
constraints, had to say no.
    And he also related the sad story of just recently being 
abroad, being in Russia and talking to Russian administrators 
to try to encourage them to relax their policies regarding BBG 
products being disseminated in Russia. And the Russians pointed 
out, ``Well, gee, you have the Smith-Mundt Act, so you can't 
show these broadcasts to your people. Why should we let you 
show them to our people?'' To which he had no answer. So, there 
is a concrete example.
    When you talk to folks from the Department of State, they 
don't see it as much of a constraint. They are more inclined 
to--in my experience to laugh it off as kind of historical 
oddity that doesn't get in their way very much. It gets in the 
way of BBG, and I have heard far too often of accounts of it 
getting in the way of the Department of Defense as well.
    Mr. Thornberry. Yes. Yes. So have I. And it seems to me it 
is a great example of an outdated law that has not kept up with 
change in technology. When you think about the Internet and how 
Smith-Mundt can possibly apply to that situation, it makes no 
sense to me. And, you know, I continue to hope and think that 
common sense will prevail at some point.
    Again, we are not interested in the government providing 
propaganda, as it is called, to try to influence decisions 
within the United States, but at the same time when you can't 
even communicate basic information because of this, it makes no 
sense at all to me either.
    We may have a couple more questions that we will submit to 
you all in writing after we go through some of what we talked 
about. Again, let me thank each of you for being here and for 
your expertise and opinions that you have shared with us. This 
is a--as you can tell--as I think several of you said, it is 
harder than it seems. Recognize that.
    On the other hand, that doesn't mean we should walk away 
from making the attempt, because I am of the view that it is an 
important component not only against the terrorists, but in a 
variety of aspects of U.S. foreign policy and national 
influence around the world. And we have got to get better at 
that.
    So thank you again for being here.
    And with that, the hearing stands adjourned.
    [Whereupon, at 4:24 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             July 12, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 12, 2011

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
